              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                          AUG 0 6 2013
Memorandum

To:            Rhea Suh
               Assistant Secretary for Policy, Management, and Budget

               Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management

From:          Hannibal M. WarniYtfJC_
               Eastern Regional ~~;Audits, Inspections, and Evaluations

Subject:       Verification Review of Recommendations for the Report, "Office of Inspector
               General's Independent Report on the "ONDCP [Office of
               National Drug Control Policy] Performance Summary Report- BIA'' (Report No.
               ER-IN-BIA-0014-2009)
               Report No. VI-VS-BIA-0003-2013

        The U.S. Department of the Interior (DOl) Office oflnspector General (OIG) has
completed a verification review of the four recommendations presented in the subject report. Our
objective was to determine whether the recommendations were implemented by the Bureau of
Indian Affairs (BIA) as reported to the Office ofFinancial Management (PFM), Office of Policy,
Management and Budget. As a result, PFM closed all four recommendations. We concur that all
recommendations are resolved and implemented.

Background

        The November 10, 2009 report, "Office oflnspector General 's Independent Report on
the "ONDCP [Office ofNational Drug Control Policy] Performance Summary Report- BIA''
(Report No. ER-IN-BIA-0014-2009)," contained four recommendations made to improve the
quality and timeliness of future Performance Summary Reports (see Attachment 1).

        In a memorandum dated April 9, 2010, BIA concurred with all four recommendations,
detailing its plans to implement the recommendations as well as actions it had already taken (see
Attachment 2). On May 7, 2010, we referred the recommendations to PFM for tracking and
implementation. PFM reported on April27, 2011 ; September 27, 2011 ; January 17, 2012; and
March 19, 2012, that BLM had implemented each ofthe recommendations, respectively. PFM
subsequently closed all four recommendations.




                         Office of Audits, Inspections, and Evaluations   I Herndon, VA
Scope and Methodology

        Our scope was limited to determining whether BIA implemented the recommendations.
We reviewed the supporting documentation provided by BIA officials and discussed with them
actions taken relating to each of the four recommendations. We did not perform any site visits or
conduct fieldwork to determine whether the underlying deficiencies that were initially identified
have actually been corrected. As a result, this review was not conducted in accordance with the
Generally Accepted Government Auditing Standards or the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       BIA implemented all four of OIG’s recommendations as indicated by their closure.

       Recommendation 1: We recommend that the BIA Director ensure that the Office of
       Justice Services (OJS) implements proper procedures to accurately track and report
       training information.

       Action Taken: OJS issued “Procedure for Annual In-Service Training and Training
       Logs” on January 6, 2012. The policy requires training applicants to complete a training
       request form (Form SF-182) prior to attending in-service training. Upon completion of
       training, the employee’s supervisor is required to complete the supervisory portion of the
       SF-182 confirming that the employee completed the training. Supervisors must track their
       employees’ training using a training log and submit the completed SF-182s to the Indian
       Affairs Indian Police Academy training technicians to be filed in the training program
       file. In addition, the training technicians maintain an Excel spreadsheet of every training
       program conducted or sponsored by the Police Academy. Upon completion of each
       training, a final class roster is produced that contains all of the pertinent information, such
       as the name of the program, the dates of the program, the name and agency for each
       student, and the completion status. When training data are required for a specific report, a
       data call is issued to the training technicians, who then compile the data and submit a
       training tracking report.

       Recommendation 2: We recommend that the BIA Director ensure that OJS provide the
       Performance Summary Report and supporting information to OIG in sufficient time
       (December 31 of each year or earlier) to meet the reporting deadline.

       Action Taken: OJS submitted the ONDCP Performance Summary Report to OIG and
       the Office of Budget on December 29, 2011, and on December 31, 2012.

       Recommendation 3a: We recommend that the BIA Director ensure that OJS continues
       to work with tribes and agencies to improve the reliability and timeliness of reporting
       performance information. In conjunction with this, OJS should have tribes and agencies
       complete a report for each month whether or not they have related activity.




                                                 2
       Action Taken: OJS instructed the BIA special agents in charge to submit monthly crime
       reports and to remind tribal leaders and tribal chiefs of police of the importance of
       submitting these reports. If a tribe does not report, a reminder is sent to the designated
       point of contact to submit the report.

       Recommendation 3b: We recommend that the BIA Director ensure that OJS continues
       to work with tribes and agencies to improve the reliability and timeliness of reporting
       performance information. In conjunction with this, OJS should monitor whether tribes
       and agencies are reporting in a timely manner.

       Action Taken: The OJS district manager monitors the submissions of crime reports on a
       monthly basis. OJS program managers and program analysts monitor the submissions of
       crime reports through the OJS database on a quarterly basis.

       Recommendation 3c: We recommend that the BIA Director ensure that OJS continues
       to work with tribes and agencies to improve the reliability and timeliness of reporting
       performance information. In conjunction with this, OJS should provide training and
       instruction on use of the reporting system.

       Action Taken: OJS identified 17 BIA employees who work with the data collection
       system used to track crime data and suggested these employees take training on the
       reporting system. The training was provided in June 2011 and is available for future
       training needs through a WebEx link. BIA officials stated that it has not hired new
       employees since the last training was conducted.

       Recommendation 4: We recommend that the BIA Director ensure that OJS reviews on a
       test basis the accuracy of support for reported information.

       Action Taken: OJS developed a protocol for the sampling and verification of drug data
       within a newly developed Lotus Notes database. In August 2011, OJS used the new
       protocol to conduct a random sampling of two December 2010 drug cases from each
       tribal police department.

Conclusion

       We informed BIA officials of the results of this review at an exit conference on July 23,
2013. BIA officials agreed with the results.


cc: Darren Cruzan, Director, Office of Justice Services
    Charles Addington, Associate Director of Operations, Office of Justice Services
    Audrey Sessions, Associate Director, Support Services Division, Office of Justice Services
    Patty Vendzules, Management Analyst, Office of Internal Evaluation and Assessment
    Patrick McHugh, Audit Liaison Officer, Office of Financial Management
    Nancy Thomas, Audit Liaison Officer, Office of Financial Management
    Sharon Blake, Audit Liaison Officer, Office of Financial Management



                                                3
